HHS/OIG, Audit -"Review of Riverside Medical Center's Reported Fiscal Year 2003
Wage Data,"(A-05-05-00022)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Riverside Medical Center's Reported Fiscal Year 2003
Wage Data," (A-05-05-00022)
March 22, 2006
Complete
Text of Report is available in PDF format (667 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether Riverside Medical Center (the hospital)
complied with Medicare requirements for reporting wage data in its fiscal year (FY) 2003
Medicare cost report.  The hospital did not fully comply with Medicare regulations for
the reporting of wage data in its FY 2003 Medicare cost report.  As a result, the hospital
overstated wage data by $4,388,324 and 1,744 hours.  We recommended that the hospital:  (1)
submit a revised FY 2003 Medicare cost report to the fiscal intermediary to correct the wage
data overstatements totaling $4,388,324 and 1,744 hours; and (2) implement review and reconciliation
procedures to ensure that the wage data reported on future Medicare cost reports are accurate,
supportable, and in compliance with Medicare requirements.  In comments to our draft
report, the hospital concurred with our findings and adjustments, but did not address our
recommendations.